Before the Committee on Commerce, Science, and Transportation
United States Senate


                          Cross-Border Trucking
For Release on Delivery
Expected at
2:30 PM EDST
Tuesday
March 11, 2008            Demonstration Project
CC-2008-049




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Inouye, Vice Chairman Stevens, and Members of the Committee:

Thank you for the opportunity to testify today on our ongoing work regarding the
Department of Transportation’s (DOT) demonstration project for Mexican trucks.
Over the past decade, we have issued over a dozen reports and testimonies on this
highly charged topic. Our interim report on the demonstration project, from which
this testimony is drawn, was issued on March 10, 2008.1 We are to provide our
final report 60 days after the conclusion of the project.

As you know, in February 2007, the Secretary of Transportation announced her
intention to start a 1-year demonstration project to allow up to 100 Mexico–
domiciled carriers to operate throughout the United States. Shortly afterward, in
May 2007, Congress, set requirements 2 to be met before the project could actually
start. One key requirement mandated that the Department, prior to initiating the
project, take action to address any issues raised in an initial report required by our
office, and report to Congress detailing such actions.

Our initial report on September 6, 2007, 3 described how the Federal Motor Carrier
Safety Administration (FMCSA) had implemented significant initiatives in
preparation for the demonstration project. Through direct observations and
analyses, our work verified that FMCSA was conducting promised on-site reviews
at applicants’ places of business in Mexico. Additionally, we reported that safety
mechanisms, such as truck inspections at border crossings, remained in place.
Further, our interviews with key state enforcement personnel showed FMCSA’s
general readiness to enforce safety rules during the demonstration project,
although officials in five states said they were not yet ready.

Our initial report emphasized three issues that the Department needed to address to
Congress before initiating the project. These were:

      • Ensuring that adequate plans were in place to carry out the Department’s
        commitment to check every participating truck every time it crossed the
        border into the United States (including a quality control plan to ensure the
        system is effective).

      • Ensuring that state enforcement officials understood how to implement
        guidance on the demonstration project and that training initiatives filtered
        down to roadside inspectors.

1
    OIG Report Number MH-2008-040, “Interim Report on NAFTA Cross-Border Trucking Demonstration
    Project,” March 10, 2008. OIG reports and testimonies can be found on our website: www.oig.dot.gov.
2
    Section 6901 of the U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability
    Appropriations Act, 2007 (Public Law 110-28).
3
    OIG Report Number MH-2007-065, “Issues Pertaining to the Proposed NAFTA Cross-Border Trucking
    Demonstration Project,” September 6, 2007.


                                                                                                     1
      • Addressing our determination that FMCSA had implemented policies,
        rules, and regulations that differed slightly from the language in 3 of 34
        specific congressional requirements. For this third area, the most
        significant variation was limiting inspections during on-site safety reviews
        to those trucks that were available at the site at the time of the inspection,
        rather than all vehicles planned for use in the United States. We did not
        identify any safety impacts arising from this difference as long as the
        commitment to check every participating truck every time it crossed the
        border was fulfilled.

To address our issues, the Department included, in its response to Congress,
Commercial Truck Border Crossing Implementation Plans for 25 U.S.-Mexico
Border Crossings. The plans were designed to ensure that every participating
truck is checked every time it crosses the border into the United States. The
response also provided FMCSA’s outreach plan designed to ensure that state
enforcement personnel have the information needed to oversee the safety of trucks
participating in the demonstration project. Finally, FMCSA agreed to address the
three areas that differed slightly from the congressional requirements, including
instituting a policy of reviewing all vehicles planned for use in the United States.

As required by the May legislation, our ongoing audit is verifying the degree to
which these actions are being carried out. We are specifically charged with
examining mechanisms established to determine whether the demonstration
project is adversely affecting motor carrier safety, reviewing Federal and state
monitoring and enforcement activities, and assessing the degree to which the
demonstration project consists of a representative and adequate sample of Mexico-
domiciled carriers likely to engage in long-haul operations.

While our mandate is to address those specific issues required by Congress, we are
mindful of the legal questions currently before the 9th Circuit Court of Appeals.
Among those is the question of the legal effect of the language contained in the
FY 2008 Appropriations Act 4 —“None of the funds made available under this Act
may be used to establish a cross-border motor carrier demonstration program....”
In my view, after reading the Senate floor debate from early September, it is clear
that the sponsors of the amendment to the Senate fiscal year 2008 Transportation
and Housing Appropriations bill in September 2007 wanted to halt the project by
denying funding. The parties to the court action in the 9th Circuit have briefed
and orally argued the interpretation of the language in the underlying Consolidated
Appropriations Act itself. Given that this matter is joined before the 9th Circuit
and is outside my mandate, I will respectfully defer to that body’s judgment.


4
    Consolidated Appropriations Act, 2008, Public Law 110-161, Division K, Title I, Section 136, (2007).


                                                                                                           2
Given our legislative requirements to review and monitor the demonstration
project, our ongoing audit will continue. Accordingly, as the year-long
demonstration project reaches its 6-month point, today we make the following
three interim observations.

First, FMCSA has implemented plans to ensure every truck is checked every
time it crosses the border, but it has not implemented a key quality control to
ensure that checks are being done, despite a commitment to do so. As stated
in our September 2007 report, these checks are important because they review the
driver’s license to ensure that the vehicle is driven by a licensed driver and verify
that the truck has an inspection decal issued by the Commercial Vehicle Safety
Alliance (CVSA). We verified that FMCSA had developed 25 site-specific
border-crossing plans in conjunction with U.S. Customs and Border Protection
(CBP) personnel to carry out these checks at the border, and FMCSA’s records
showed about 3,700 checks were done since the demonstration project began in
September. However, FMCSA has not implemented a quality control measure
that is important for ensuring the reliability and completeness of this information,
even though FMCSA committed to do so in its September 6, 2007, letter report to
Congress. 5

In the report, FMCSA stated that it would acquire crossing data from CBP and
perform a monthly analysis of a random sample of the data to document the extent
to which FMCSA was meeting its goal of checking every truck every time it
crossed the border. Further, if issues were identified, it would develop strategies
to address them. At this time, FMCSA has not implemented this process.
According to a FMCSA official, FMCSA is still gathering information for this
control. Until FMCSA implements a quality control check using CBP, or another
valid source of data, to establish a baseline for the number of crossings, FMCSA
will not have assurance that all checks are being conducted as required. Further,
to the degree that others use this information to develop conclusions about the
demonstration project, errors and omissions in crossing data would adversely
affect the analysis. We will give this issue greater scrutiny as our audit continues.

Second, the limited data available at this time means we cannot draw any
meaningful conclusions about the safety performance of the demonstration
project participants. Far fewer carriers and vehicles have participated in the
project than expected, and over 90 percent of recorded trips by participants are
inside the commercial zones. As of March 6, 2008, 19 Mexican carriers had been
granted authority for the project instead of the 100 anticipated, and 1 of those has
recently withdrawn. The number of vehicles that had been involved as of
February 25, 2008, is also significantly lower than anticipated, about 13 percent of
the number estimated before the project began. Also, as of that same date, only
5
    Enclosure 4 of the Department’s September 6, 2007, letter report to Congress.


                                                                                    3
247 trips beyond the commercial zone were recorded on FMCSA’s records, and
almost 90 percent of those trips were reportedly going to one state—California.

Our analysis of the small group of participating carriers shows that they are
representative of certain characteristics of prior Mexican applicants, such as the
number of vehicles. Although no crashes involving a participant had been
recorded on FMCSA’s records from the project’s initiation through March 1,
2008, the limited number of participants and limited safety-related data will
prevent FMCSA from drawing any meaningful conclusions at this time.

Third, FMCSA has taken actions to establish and enhance mechanisms for
assessing adverse safety impacts from the project and for monitoring and
enforcing safety rules for project participants. These actions include
establishing and providing information to an independent panel6 charged with
determining whether the safety performance of participating Mexican carriers
differs from the safety performance of U.S. carriers. However, the independent
panel has also expressed concerns that the low number of participants will affect
its ability to draw meaningful conclusions from the data about the safety
performance of the demonstration project participants.

FMCSA’s actions have also included providing guidance and training to state
officials. In five states where officials had previously told us they were not ready
to enforce the rules of the demonstration project, officials advised that they were
now ready, citing the additional training and guidance received from FMCSA.
FMCSA is also recording insurance information from participant carriers,
contracting for a GPS tracking system for participating vehicles, taking steps to
improve data on Mexican driver convictions in the United States, and monitoring
Mexican carrier records. We will continue to monitor and review these areas as
the audit continues.

The balance of my statement discusses these issues in further detail.

FMCSA Has Not Implemented a Key Quality Control for Ensuring
That Checks of Drivers and Vehicles Crossing the Border Occur
as Planned, Despite a Commitment To Do So

FMCSA’s policy requires that CVSA decals, driver’s licenses, and proficiency in
the English language be checked for project participants at each border crossing
regardless of whether the truck is staying within the commercial zone or traveling
beyond. This has been referred to as “checking every truck every time.” We
verified that FMCSA had developed 25 site-specific border crossing plans in

6
    The panel includes former U.S. Representative, Jim Kolbe; former Department of Transportation (DOT)
    Deputy Secretary, Mortimer Downey; and former DOT Inspector General, Kenneth Mead.


                                                                                                     4
conjunction with CBP personnel to carry out these checks at the border, and
FMCSA’s records as of February 25, 2008, showed that 3,680 checks were
conducted. However, a key quality control for ensuring the reliability and
completeness of this information has not been implemented even though FMCSA
had committed to do so in its September 6, 2007, letter report to Congress. 7

FMCSA reported to Congress that it would acquire crossing data from CBP and
perform a monthly analysis of a random 10 percent sample of the data to reconcile
CBP data against FMCSA’s records. A monthly report of the results would
provide details on each border crossing and identify any issues related to checking
every vehicle every time as well as including strategies to address those issues.
The overall purpose of the quality control plan was to document the extent to
which FMCSA was meeting its goal of checking every truck every time it crossed
the border. However, according to a FMCSA official, FMCSA is still gathering
information for this control. Until FMCSA implements a quality control check
using CBP, or another valid source of data, to establish a baseline for the number
of crossings, FMCSA will not have assurance that all checks are being conducted
as required.

In addition to ensuring that all vehicles and drivers are checked, it is also
important that accurate information be recorded during the checks to facilitate the
evaluation of the project. We examined FMCSA’s records for about 2,000 truck
crossings for participants that occurred through January 5, 2008. To date, we have
identified 44 FMCSA crossing records that had unclear or incomplete responses,
such as stating “not applicable” for recording a primary CVSA decal number or
leaving blank the space for English proficiency testing. To the degree that the
Independent Evaluation Panel uses this information for its work, errors and
omissions in crossing data would adversely affect the panel’s analysis. We will
obtain updated data and conduct additional analyses as the project continues.

The Limited Data Available at This Time Means We Cannot Draw
Any Meaningful Conclusions About the Safety Performance of
the Demonstration Project Participants

Immediately after issuing its report to Congress on September 6, 2007, the
Department initiated the demonstration project by granting provisional authority to
the first Mexico-domiciled carrier. However, far fewer carriers than anticipated
are participating in the demonstration project. As of March 6 of this year,
19 Mexican carriers have been granted provisional authority, one of which
withdrew 8 on February 1, 2008. By contrast, in April 2007, the Department had

7
    Enclosure 4 of the Department’s September 6, 2007, letter report to Congress.
8
    The carrier that withdrew, Trinity Industries de Mexico S de R L de CV, had identified 16 vehicles for
    use in the project, the largest number of all demonstration project participants at the time it withdrew.


                                                                                                           5
anticipated granting provisional authority to 25 carriers each month, until the
number reached 100.

According to FMCSA records, an additional 28 carriers have qualified for the
program, but they have not filed the required proof of insurance. Even if those
carriers were to file the required insurance proof and were granted provisional
authority, the total number of Mexican carriers would reach only 47—just under
half of the 100 carriers originally envisioned.

FMCSA records also show that fewer vehicles than originally estimated are
involved in the project and only a small number of trips are going beyond the
commercial zones. In August 2007, FMCSA estimated that, based on the number
of vehicles approved at that time, 540 vehicles would be participating in the
project if 100 Mexican carriers eventually received provisional authority. By
contrast, as of February 25, 2008, only 70 vehicles were identified by the 16
Mexican carriers 9 who had participated up to that point, including the carrier that
dropped out. FMCSA’s records, as of February 25, 2008, showed 3,680 crossings
into the United States by project participants, with 247 or 6.7 percent listing
destinations beyond the commercial zones. About 90 percent of the recorded trips
beyond the commercial zones were going to a single state—California.

The table below compares the projected and actual carrier and vehicle
participation.


           Table: Projected versus Actual Participation as of
                          February 25, 2008

    600                                           540
    500
    400
                                                                            Projected
    300
                                                                            Actual
    200            100                                      70
    100                     16
      0
                     Carriers                       Vehicles

Source: OIG Analysis of FMCSA data.                     Data are for carriers granted provisional
authority as of February 25, 2008.


9
    According to FMCSA data, 19 carriers had received provisional authority as of March 6, 2008. We
    limited our analyses to the 16 Mexican carriers that had received authority as of February 25, 2008,
    including the carrier that withdrew from the project on February 1, 2008. We did not include in our
    analysis data related to the three carriers admitted to the project after February 25, 2008.


                                                                                                      6
Although we have not independently verified the information, according to
FMCSA officials and press reports, factors such as the additional costs of
insurance, the uncertainty of the project, and the burdens associated with increased
reviews at the border may have played a role in the limited participation of
Mexican carriers.

The current number of participants is not adequate to make statistically reliable
projections or estimates of some important characteristics, including safety
characteristics such as the number of crashes that could be expected involving
long-haul Mexican carriers. The carriers currently 10 participating in the project
represent about 2 percent of the 723 original applications for the long-haul
authority that FMCSA provided us. Nonetheless, our analysis of the first
16 carriers that participated in the demonstration project shows that for certain
other characteristics, such as number of vehicles reported, the demonstration
project participants appear to be representative of a larger group of Mexican
carriers that have applied for long-haul authority in the United States over the past
10 years.

For example, the figure below compares the number of vehicles operated by
demonstration project participants and the universe of the 723 long-haul
applicants. This figure is based on answers supplied by the 723 applicants in their
application packages to FMCSA and on the answers the demonstration project
participants supplied on their individual applications.

 Figure: Comparison of Number of Vehicles for Project Participants to
            Universe of 723 Prior Long-Haul Applicants

        Number of Vehicles Owned


                            80%

                            60%

                            40%

                            20%

                            0%
                                                                                   NO
                                  1 TO 5   6 TO 10   11 TO 15   16 TO 20   >20
                                                                                 ANSWER
                 UNIVERSE         72%        7%        2%         0%       2%     16%
                 PARTICIPANTS     63%       13%        0%         0%       13%    13%


Source: OIG Analysis of FMCSA data



10
     As of March 6, 2008.


                                                                                          7
We Will Continue To Review and Monitor FMCSA Actions To
Establish and Enhance Mechanisms for Assessing Adverse
Safety Impacts From the Project and for Monitoring and
Enforcing Safety Rules for Project Participants

To its credit, FMCSA has taken actions to help ensure that participants comply
with safety regulations and project requirements. Based on our interim
observations as the year-long demonstration project reaches its 6-month point, we
plan future work in the following areas.

Guidance for and Training of State Enforcement Officials. FMCSA has
provided guidance and training for state enforcement officials. We obtained
information showing that 421 state officials received further training on issues
related to foreign motor carriers before and after the project was initiated. To
assess the impact of these efforts, we followed up on the results of our September
6, 2007, report where we noted that officials in five states were of the opinion that
they were not ready to enforce the requirements of the demonstration project. For
this review, we re-contacted officials in those five states, and all now indicate that
they are ready to enforce demonstration project requirements for Mexican carriers.
Those officials cited completion of adequate training and receipt of FMCSA
guidance as the primary reasons for their current readiness to enforce
demonstration project requirements. We will continue to monitor FMCSA’s
training efforts as the project continues.

Insurance Requirements. FMCSA has recorded insurance information from
project participants in an established database. Our independent examination of
FMCSA’s Licensing and Insurance System and our direct contact with the
insurance companies showed that all Mexican carriers who were issued
provisional authority as of February 4, 2008, had the required $750,000 in bodily
injury and property damage liability insurance We will continue to verify that
insurance is maintained by the participants as the demonstration project continues.

Mexican Conviction Database. FMCSA has established a Mexican Conviction
Database to track traffic convictions of Mexican drivers occurring in the United
States. FMCSA has provided us with data indicating that problems we identified
in August 2007, 11 with the Mexican Conviction Database (formerly known as the
52nd State System) have been corrected by the states. We also verified that a
report to help identify inconsistencies in the database was issued in January 2008.
We will conduct further testing at the states as the audit continues.


11
     OIG Report Number MH-2007-062, “Follow-up Audit on the Implementation of the North American
     Free Trade Agreement’s Cross-Border Trucking Provisions,” August 6, 2007.


                                                                                              8
Global Positioning System (GPS). FMCSA has contracted with a company to
place global positioning devices on all U.S. and Mexican trucks participating in
the project; and FMCSA demonstrated to us how the system can identify the
position of a particular truck. Data provided by FMCSA showed that as of
February 21, 2008, 82 GPS units had been installed (38 on Mexican trucks and 44
on U.S. trucks) and plans were being finalized to install an additional 19 units (on
14 Mexican trucks and 5 U.S. trucks). As the demonstration project continues we
plan to monitor the installation and use of GPS technology, particularly as it
relates to cabotage and hours-of-service violations.

Mexican Carrier Monitoring System. Our previous audit work confirmed the
establishment of a system for monitoring compliance of Mexican carriers
operating in the United States. We obtained reports from this system for
demonstration project participants, and we will continue to review these as the
audit continues.

In closing, let me assure you that we will continue to closely monitor and review
this demonstration project and to scrutinize other critical issues regarding the
cross-border trucking provisions of the North American Free Trade Agreement
(NAFTA), as required by Congress. The exhibit to our testimony provides a
summary of our September 6, 2007, report on issues pertaining to the
demonstration project and a list of our other prior reports and testimonies.

Mr. Chairman, this concludes my statement. I would be happy to answer any
questions that you or other members of the Committee may have at this time.




                                                                                  9
EXHIBIT. PRIOR OIG REPORTS AND TESTIMONIES ON CROSS-
BORDER TRUCKING ISSUES

Summary of our Latest Report
OIG Report No. MH-2007-065, “Issues Pertaining to the Proposed NAFTA
Cross-Border Trucking Demonstration Project,” September 6, 2007.

We identified three issues pertaining to the proposed demonstration project.

First, FMCSA had not developed and implemented complete, coordinated plans
for checking trucks and drivers participating in the demonstration project as they
cross the border. Without having site-specific border crossing plans in place and
fully coordinated with CBP and the state, the Department’s commitment to check
every demonstration project truck every time it crosses the border into the United
States is at risk. We also stated that these plans should include quality control
measures to ensure that FMCSA’s system for checking each demonstration project
truck is effective. These checks are important because they review the driver’s
license to ensure that the vehicle is driven by a licensed driver and verify that the
truck has a current inspection decal issued by the CVSA. This decal shows that
the vehicle received a safety inspection in the previous 3 months.

Second, we reported that a considerable number (26 of 50) of state officials,
responsible for coordinating motor carrier safety programs, expressed one or more
concerns about the demonstration project, and officials in 5 states indicated they
were not ready to enforce demonstration project requirements. Despite issuing
guidance and brochures on assessing English language proficiency; detailing
cabotage rules, regulations, and procedures; and initiating a train-the-trainer
program, state concerns indicated that FMCSA should develop a feedback
mechanism to ensure that critical information reaches the roadside inspectors who
enforce Federal safety rules.

Third, we found that FMCSA implemented 3 of 34 provisions in Section 350(a) of
the FY 2002 Appropriations Act using language that differed slightly from what
Congress had specified. The differences related to which trucks should be
inspected during pre-authorization safety audits, which drivers should undergo
electronic license checks at border crossings, and the inclusion of newer safety
rules applicable to Mexican motor carriers.




                                                                                  10
Other Prior Reports and Testimonies
OIG Report No. MH-2007-062, “Follow-up Audit on the Implementation of the
North American Free Trade Agreement’s Cross-Border Trucking Provisions,”
August 6, 2007.

OIG Testimony, CC-2007-029, “Status of Safety Requirements for Cross-Border
Trucking With Mexico Under NAFTA,” March 13, 2007.

OIG Testimony, CC-2007-026, “Status of Safety Requirements for Cross-Border
Trucking With Mexico Under NAFTA,” March 8, 2007.

OIG Report No. MH-2005-032, “Follow-up Audit of the Implementation of the
North American Free Trade Agreement’s (NAFTA) Cross-Border Trucking
Provisions,” January 3, 2005.

OIG Report No. MH-2003-041, “Follow–up Audit on the Implementation of
Commercial Vehicle Safety Requirements at the U.S.–Mexico Border,”
May 16, 2003.

OIG Testimony, CC-2002-179, “Implementation of Commercial Motor Carrier
Safety Requirements at the U.S.-Mexico Border,” June 27, 2002.

OIG Report No. MH-2002-094, “Implementation of Commercial Vehicle Safety
Requirements at the U.S.-Mexico Border,” June 25, 2002.

OIG Report No. MH-2001-096, “Motor Carrier Safety at the U.S.-Mexico
Border,” September 21, 2001.

OIG Testimony, CC-2001-244, “Motor Carrier Safety at the U.S.-Mexico Border,”
July 18, 2001.

OIG Report No. MH-2001-059, “Interim Report on Status of Implementing the
North American Free Trade Agreement’s Cross-Border Trucking Provisions,”
May 8, 2001.

OIG Report No.        TR-2000-013,    “Mexico-Domiciled     Motor    Carriers,”
November 4, 1999.

OIG Report No. TR-1999-034, “Motor Carrier Safety Program for Commercial
Trucks at U.S. Borders,” December 28, 1998.

OIG reports, testimonies, and correspondence can be accessed on the OIG website
at www.oig.dot.gov .


                                                                            11
The following page contains textual versions of the chart and figure found in this
document. This page was not in the original document but has been added here to
accommodate assistive technology.
Testimony Before the Committee on Commerce, Science, and Transportation
                         United States Senate

                Cross-Border Trucking Demonstration Project


Table: Projected versus Actual Participation as of February 25, 2008

The table is a 2-column chart that compares the projected number of carriers and
vehicles to those actually participating in the demonstration project as of
February 25, 2008. The first comparison shows that 100 carriers were projected to
participate in the demonstration project but 16 carriers had actually participated as
of February 25, 2008. The second comparison shows that 540 vehicles were
projected to participate in the project but 70 vehicles had actually participated as
of February 25, 2008.

Source: OIG analysis of FMCSA data. Data are for carriers granted provisional
operating authority as of February 25, 2008.

Figure: Comparison of Number of Vehicles for Project Participants to
Universe of 723 Prior Long-Haul Applicants

The figure is a chart that compares the responses provided by the universe of all
723 applicants for long-haul authority to responses provided by the 16
demonstration project participants that had participated in the demonstration
project as of February 25, 2008. The comparisons are presented as percentages of
all responses within each respective group, and total percentages for a group may
exceed 100 percent due to rounding. The universe of 723 applicants includes the
16 participants.

This chart compares responses of the two groups on the number of vehicles they
owned. The number of vehicles is presented in categories of 1 to 5 vehicles, 6 to
10 vehicles, 11 to 15 vehicles, 16 to 20 vehicles, greater than 20 vehicles, and no
answer.

1 to 5 vehicles        72 percent of universe         63 percent of 16 participants
6 to 10 vehicles       7 percent of universe          13 percent of 16 participants
11 to 15 vehicles      2 percent of universe          0 percent of 16 participants
16 to 20 vehicles      0 percent of universe          0 percent of 16 participants
More than 20 vehicles 2 percent of universe           13 percent of 16 participants
No answer              16 percent of universe         13 percent of 16 participants
Source: OIG Analysis of FMCSA data.
